                                                         United States Department of State
                                                         and the Broadcasting Board of Govemors

                                                         Office of Inspector General


                                                             FEB 20 2013

MEMORANDUM

TO:            IBB - Richard M. Lobo

FROM:          OIG - Harold W. Geisel
                                      IZ l!v-:;:~;'II?
SUBJECT:       Review of Broadcasting Board of Governors' Operations in Abuja, Nigeria,
               ISP-IB-13-l7


Executive Summary

        Voice of America (VOA) radio broadcasts to Nigeria via affiliate stations are one of the
few ways of maintaining communication with Nigerian populations. The Broadcasting Board of
Governors (BBG) was pursuing an aggressive marketing strategy that had produced several new
programming affiliations despite restrictive broadcasting laws and increasing extremist violence
in the country.

Purpose and Scope

       In connection with the OIG inspection of Embassy Abuja, a public diplomacy inspector
reviewed BBG operations in Nigeria. The onsite inspection took place on October 10,2012.

Staffing

         BBG does not have a broadcasting facility or direct-hire staff in Nigeria. VOA has four
Nigerian contract stringers-three news stringers and one for health reporting-who report for
the Hausa Language Service in the Kano area of northern Nigeria. The health stringer is funded
by the U.S. Agency for International Development (USAID). In addition to funding the health
affairs stringer, USAID has also provided funding to support VOA health and education
programming. For several years VOA maintained a small office in Kano, but with the sharp
increase in violence in the region, the office was closed and the stringers must now work out of
their homes.

        BBG's Office of Strategy and Development (OSD) has a contract representative in Abuja
who is responsible for marketing and placing VOA radio and television programs with affiliate
stations throughout Nigeria.


                            SENSITIVE BUT UNCLASSIFED
                                                 -2-

                             SENSITIVE BUT UNCLASSIFED

Transmission of Broadcasts

        With a population of 170 million, Nigeria is the most populous country in Africa and
seventh largest in the world. A 2012 Gallup study found that approximately 88 percent of
Nigerians rely on radio broadcasts as their main source of news and information. A growing
number of Nigerians receive radio broadcasts, as well as Internet, email, and social media
services, from their mobile phones. This fact would normally provide an excellent market for
VOA news broadcasts, except that a Nigerian federal law prohibits Nigerian radio and television
stations from broadcasting live news feeds from foreign media. Under these conditions, all
foreign broadcasters, including VOA and the British Broadcasting Company, in their
broadcasting through Nigerian affiliate stations are limited to prerecorded discussion and cultural
programs, but no live news. All live VOA English and Hausa language programs, including
news, are broadcast from transmitting facilities outside of Nigeria.

Opportunities for Growth

         At the time of the inspection, the OSD marketing representative was maintaining
programming affiliations with] 2 Nigerian radio stations, four TV stations, and one Internet
radio station. These affiliations include several broadcasters in the critical northern regions of
Nigeria that are predominantly Islamic. This is clear progress toward BBG's strategic goal of
seizing targeted growth opportunities, particularly because U.S. mission personnel are not able to
travel to most northern regions of the country because of steadily increasing Islamic extremist
violence. VOA radio broadcasts to the region via affiliate stations are one of the few ways of
maintaining communication with these important Nigerian populations but the increasing
violence in Nigeria will make it difficult for BBG to reach its growth goal in the near future.

Administrative Issues

        BBG does not maintain an office in Abuja and the marketing representative must work
from his apartment. Although he pursues an aggressive marketing strategy that has produced
several new affiliations in past months, he believes that not having an office limits his ability to
develop new markets. A regional VOA representative has traveled to Abuja several times in
recent months to explore the possibility of establishing an office.

       The marketing representative reports excellent cooperation with the embassy, particularly
with the public affairs section. VOA receives a number of support services, including pouch
support for shipments of equipment, transportation, and logistical support to a growing number
of temporary duty visits by regional VOA and marketing personnel. In the past, VOA subscribed


                            SENSITIVE BUT UNCLASSIFIED
                                           -3-
                               SENSITIVE BUT UNCLASSIFIED

    to embassy ICASS services but terminated the sUbscription in 2005 . The management section of
    the Embassy Abuja OIG inspection report includes a recommendation that the embassy
    determine whether BBG should become an ICASS subscriber.

    Security Issues

            The memorandum of understanding between the Department of State and BBG with
    respect to security services explicitly exempts VOA correspondents from chief of mission
    authority. Particularly in an environment where harassment and violence directed against
    journalists is common, the embassy can playa role in advising on security practices. The
    embassy regional security office does not engage with the VOf>. contract stringers.

            I would be happy to meet with you to discuss this matter further, or your staff may
    contact Robert Peterson, Assistant Inspector General for Inspections, by email at
(b)(2)(b)(6)@state.gov or by telephone on (b)(2)(b)(6)

    cc:    Kelu Chao, Director, International Broadcasting Bureau
           Barbara Tripp, Management Analyst, International Broadcasting Bureau




                                SENSITIVE BUT UNCLASSIFIED
